        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Office of Secure Transportation
Capabilities




OAS-M-12-05                                June 2012
                                  Department of Energy
                                       Washington, DC 20585

                                          June 29, 2012
UN


MEMORANDUM FOR THE ASSISTANT DEPUTY ADMINISTRATOR, OFFICE OF
               SECURE TRANSPORTATION


FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Office of Secure Transportation
                         Capabilities"

BACKGROUND

The National Nuclear Security Administration's Office of Secure Transportation (OST) is
responsible for safely and securely transporting nuclear weapons, weapon components and
special nuclear material for customers such as the Department of Energy, Department of Defense
and the Nuclear Regulatory Commission. Specifically, OST shipments support the nuclear
weapons stockpile dismantlement and maintenance schedule as well as the consolidation of
nuclear material storage. Accordingly, these shipments are highly guarded for the protection of
the public and national security. Because of the critical nature of OST's cargo and its role as the
sole provider of this unique capability, any interruption of OST's ability to complete its mission
would result in an unacceptable impact on national security.

The demand for OST services is expected to increase significantly over the next 7 years as a
result of current Presidential initiatives and international nonproliferation efforts. For example,
directives that were developed to support the President's Nuclear Weapons Stockpile Plan
identify new life extension or refurbishment programs to the W78, B61 and W88 weapon
systems. Additionally, as part of the implementation of the Plutonium Management and
Disposition Agreement between the United States and Russia, thousands of nuclear weapons pits
will be transported by OST from the Pantex Plant to the Savannah River Site. These various
initiatives will require OST transportation of both material and weapon components. OST
forecasts show an increase in mission demand through 2019. In fact, OST projected that Fiscal
Year 2017 mission demand will be 144 percent of FY 2010 levels. Mission demand is calculated
as the number of packages requested to be transported by OST.

Due to the importance of its mission to safely and securely transport nuclear weapons, we
performed this audit to evaluate the challenges OST faces in meeting future mission requirements.

CONCLUSIONS AND OBSERVATIONS

We found that while OST has successfully met customer shipping requests in the past and
expects to have capacity to meet future requirements, it faces several significant challenges.
These challenges include maintaining the reliability of existing equipment; ensuring that future
Federal agent overtime levels are consistent with safe operations; and, validating essential
resource planning data. Specifically:

   •   Based on its own criteria, OST's entire fleet of armored tractors (tractors) is beyond its
       operational life as of December 2011;

   •   Federal agents are currently incurring overtime at levels approaching those considered not
       to be sustainable over the long term; and,

   •   Information provided by mission forecasts may not be sufficiently reliable to accurately
       estimate and plan for operational needs.

Accordingly, management attention is needed to address these challenges to reduce the risk that
OST will be unable to meet its future mission requirements.

                                        Armored Tractors

OST's existing fleet of operational tractors is beyond its operational life and may not be reliable
to fulfill future required missions unless planned fleet improvements are successfully
implemented. OST's Site Safeguards and Security Plan states that the useful life of a tractor is 10
years or 500,000 miles, whichever occurs first. While the accrued average mileage of all tractors
was 352,000 miles as of December 2011, OST's entire operational inventory of 43 tractors is
beyond its operational life, with 33 of those tractors in service over 11 years as of December
2010. In June 2011, OST officials completed a cost analysis for an Armored Tractor Life
Extension Program (Extension Program) that consists of a more robust proactive vehicle part
preventative replacement plan, and approved the Extension Program for one vehicle at an
estimated cost of $60,000. This vehicle was in production and had not been completed as of
December 2011. An OST official told us that a decision had been made to expand the Extension
Program to 33 vehicles. According to OST management, the vehicle refurbishments are
expected to extend useful lives of the tractors up to an additional 3 to 5 years.

Successful implementation of the Extension Program is critical to the future reliability of the
tractor fleet because plans to acquire a next generation tractor have been repeatedly delayed and
there are currently no firm delivery dates for new tractors. Specifically, OST planned to submit a
request for proposal for new tractors in FY 2008; however, the solicitation was not issued until
FY 2012. Currently, OST does not expect production of new tractors to begin until 2014 and no
date has been established for delivery of the first unit.

OST officials told us that the tractors were not replaced before the end of the useful lives due to
competing management priorities and classification issues. Specifically, management placed a
higher priority on other initiatives such as replacing part of the aviation fleet and upgrading the
existing communications system. As a result of these prioritization decisions, funding that could
have been made available for acquisition of next generation tractors was utilized on other
projects. Additionally, with the anticipated production of the next generation tractor, OST
management had considered increasing the classification of this vehicle to Confidential National
Security Information due to the location of ballistic protection (Armor). According to an OST
                                                 2
official, this consideration added as much as six months to the procurement schedule.
Management stated that it ultimately determined that the classification of the next generation
tractor should not be increased.

While we did not specifically review prioritization decisions and do not assert that these
decisions were inappropriate, we do believe that continued management attention is needed to
ensure that OST's tractor capability is adequate to meet future mission needs. The longer the
current tractors are employed beyond the useful lives, the more likely significant vehicle
reliability issues could develop which could impact OST's ability to complete its mission.

                                                 Federal Agents

OST agents are working significant amounts of overtime to meet current mission requirements.
In 2003, OST issued a Performance-Based 5-Year Resource Study (2003 Study) which noted that
800 to 1,000 annual overtime hours per agent was not sustainable for the long term. Our analysis
concluded that agents were working overtime hours approaching those levels. Specifically,
during FY 2010, despite working 73 percent of their mission week capacity1, OST agents
averaged 712 hours of overtime and 38 percent of the agents averaged 902 hours of overtime. In
our view, the overtime levels currently experienced by OST agents raises concerns about their
ability to safely and securely meet the expected increases in workload over the next 7 years.
Further, the 2003 Study noted that excessive overtime resulted in agent fatigue and associated
safety and security concerns.

To address overtime issues, the 2003 Study stated OST could increase the agent workforce which
would reduce the overtime for current agents. Subsequent to the 2003 Study, OST increased the
number of agents in an attempt to decrease the average number of overtime hours per agent.
However, OST's mission demand also increased during this period. Based on our review of
future customer shipping requirements, OST's workload is expected to significantly increase
through FY 2019. Since OST agents are already incurring significant amounts of overtime to
meet current mission requirements, the increased demand could exacerbate potential adverse
impacts to safety and security due to agent fatigue.

To help mitigate the impact of overtime required to conduct mission and training workload while
addressing quality of life issues associated with extended periods of time on mission status, OST
implemented a predictive schedule. According to OST management, the predictive schedule
provides agents with an advance schedule which permits rest between mission and training and is
an effective tool to improve agent quality of life. However, in our opinion, the ability of agent
resources to safely and securely meet the expected increase in demand for OST services requires
continued management attention given the significant amount of overtime currently incurred by
the agents.

                                              Forecast Validation

OST's mission forecast methods may not permit the development of sufficient resource planning
information. Department Order 461.1B Packaging and Transportation for Offsite Shipment of
1
 Mission week capacity is the total number of weeks in a year where any given unit is available for a mission. In
FY 2010, that amount was 107.
                                                         3
Materials of National Security Interest requires that OST forecasts be sufficient to meet both
planning and operational needs. Additionally, the previously discussed 2003 Study pointed out
that the lead time necessary to hire, clear and train agents; build equipment; and, update facilities
requires OST to accurately forecast customer requirements several years in advance.

OST however, has not consistently validated its mission requirements forecasts that are used to
plan for hiring and training agents and acquiring additional equipment. Currently, OST uses the
Transportation Resources Integrated Planning Suite (TRIPS) to forecast mission demands and
plan for needed resources. However, with the exception of one limited manual validation of
mission demands that compared FY 2006 shipping forecasts to actual FY 2006 shipments, OST
has not validated the accuracy of its shipping forecasts. The limited validation of FY 2006
shipments indicated that only 85 percent of forecasted shipments were actually shipped.
According to an OST official, the manual validation was labor-intensive, time-consuming and
subject to human error.

Also, we noted that OST had not integrated TRIPS, its mission and resource forecasting system,
with its mission execution system that tracks actual shipments. Specifically, there is not a
common field between the forecasting system, TRIPS, and the execution system, Transportation
Command and Control System (TCCS). Currently, TRIPS system utilizes a Campaign
Identification Number (CID) as a unique identifier. However, TCCS does not contain any fields
in common with TRIPS. This lack of a common field between these two systems makes the
comparison and validation of information between TCCS and TRIPS significantly more difficult.
To integrate the systems, a common field such as the CID could be added. The CID field could
be queried to provide output that could then be used to validate the TRIPS forecasts. OST
officials indicated that the addition of a common field would provide a means to validate
forecasts.

Because OST is not consistently validating mission forecasts, we could not verify that these
forecasts were sufficient to meet both planning and operational needs. Accordingly, OST could
be making decisions based on potentially invalid information, actions that could ultimately result
in insufficient resources to meet mission needs.

RECOMMENDATIONS

To help ensure the future mission requirements are satisfied, we recommend that the Assistant
Deputy Administrator, Office of Secure Transportation:

     1. Ensure the timely replacement or accelerated refurbishment of the tractor inventory;

     2. Evaluate the impact of the agent overtime that will be needed to meet future mission
        needs safely and securely;

     3. Determine whether additional agent resources are needed to meet future mission needs
        based on the results of the overtime evaluation; and,

     4.   Integrate TRIPS and TCCS to foster efficient forecast validation.


                                                  4
MANAGEMENT REACTION AND AUDITOR COMMENTS

NNSA management concurred with the report's recommendations and proposed corrective
actions. Officials also indicated that planned corrective actions will be used to continue
improving NNSA's secure and safe transport of nuclear weapons. Management acknowledged
that it faces significant challenges as a result of the existing fiscal environment, including
maintaining the reliability of existing equipment; ensuring that future Federal agent overtime
levels are consistent with safe operations; and, validating essential resource planning. In
response to our recommendations, management stated that OST plans to post a request for
proposal for new tractors in June 2012 and continue an aggressive program to refurbish the
tractor fleet; is working to improve workload modeling; and, will "right-size" the agent force
based on future workload requirements. Regarding forecast validation, management stated that
the forecasting and shipping systems could not be integrated because each one resides on a
different classified system. However, OST plans to add a field to the TCCS to track the CID for
material being transported. This field would provide a common piece of information between the
forecasting and execution tools. Additionally, management stated that the TCCS is migrating to
a commercial off-the-shelf system that offers opportunities to create additional fields for
historical tracking.

Management's proposed actions are responsive to the recommendations. Management's
comments are included in Attachment 3.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                              5
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to evaluate the challenges facing the Office of Secure
Transportation (OST) in meeting future requirements.

SCOPE

This audit was performed between September 2010 and May 2012, at the OST Headquarters and
Western Command, in Albuquerque, NM; as well as OST's Eastern Command, in Oak Ridge,
TN.

METHODOLOGY

To accomplish the audit objective we:

     •   Analyzed OST shipment transportation capacity, historical mission data and future
         demand;

     •   Evaluated resources needed to meet mission requirements;

     •   Analyzed armored tractor inventory useful life and compared it to time in service;

     •   Evaluated armored tractor inventory contingency plans;

     •   Reviewed Federal agent timesheets and overtime records; and,

     •   Evaluated validation of OST's forecasting and execution systems.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that the National Nuclear Security Administration had established performance measures for
OST capabilities. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. Finally, our audit
relied on computer-processed data. We determined that the data was reliable for the purposes of
our audit.

OST management waived an exit conference.




                                                6
                                                                                Attachment 2


                             PRIOR AUDIT REPORTS


• Audit Report on The National Nuclear Security Administration's Secure Transportation
  Asset (STA) Program (OAS-L-04-24, September 2004). The audit determined that
  although STA is able to meet current workload, we are concerned with the significant
  gap between customer planned shipments and actual performance. Additionally, there is
  a risk that STA may not meet projected workload requirements. However, there are
  several factors and processes in place that should help STA mitigate the possibility of
  not meeting its future customer requirements. Specifically, STA is hiring Federal
  agents, procuring additional vehicles, and will have the ability to adjust overtime and
  workload to better accommodate shipping demands.

• Audit Report on Audit of Controls over Expenditures Within the Office of Secure
  Transportation (OST) (OAS-L-04-05, November 2003). The audit determined that OST
  routinely purchased goods and services that were appropriate to support intelligence,
  planning, communications, training, logistics and personnel functions. However, the audit
  disclosed that OST also expended funds for items that were not required or did not
  significantly contribute to the mission of the organization. Some of the expenditures were
  made, in part, because OST management wanted to increase professionalism and "esprit de
  corps" within its organization.




                                           7
                      Attachment 3


MANAGEMENT COMMENTS




         8
    Attachment 3 (continued)




9
     Attachment 3 (continued)




10
                                                                    IG Report No. OAS-M-12-05


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
